          United States Government
   National Labor Relations Board
              Office of Inspector General




SEMIANNUAL

REPORT
april 1, 2012 – september 30, 2012




                    NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................8

Legislation, Regulations and Policy............................................. 10

Liaison Activities............................................................................ 11

Information Required by the Act................................................ 12

Reports by Subject Matter............................................................ 13

Appendix......................................................................................... 15
EXECUTIVE
SUMMARY

I
     hereby submit this Semiannual Report for the period April 1, 2012 –
     September 30, 2012. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of the Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued one audit
report and a Management Implication memorandum. As a result of the audit
program, we identified $296,410.83 in questioned costs. In the investigation
program, the Office of Inspector General processed 110 contacts, initiated
10 cases, closed 14 cases, and issued 5 investigative reports. Our investigative
efforts resulted in two resignations while the investigation was pending and
one suspension. One matter was referred for prosecution.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                              David Berry
                                              Inspector General
                                              October 30, 2012




                                              NLRB Semiannual report           1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor relations
    law of the United States, and its provisions generally apply to private
    sector enterprises engaged in, or to activities affecting, interstate commerce.
    NLRB jurisdiction includes the U.S. Postal Service (other government entities,
    railroads, and airlines are not within NLRB’s jurisdiction).


The NLRB seeks to serve the public
interest by reducing interruptions
in commerce caused by industrial
strife. It does this by providing
orderly processes for protecting
and implementing the respective
rights of employees, employers,
and unions in their relations with
one another. The NLRB has two
principal functions: (1) to determine
and implement, through secret ballot
elections, the free democratic choice
by employees as to whether they                judicial body in deciding cases
wish to be represented by a union              on formal records. The General
in dealing with their employers and,           Counsel investigates and prosecutes
if so, by which union; and (2) to              unfair labor practices before
prevent and remedy unlawful acts,              administrative law judges, whose
called unfair labor practices, by              decisions may be appealed to the
either employers or unions.                    Board, and, on behalf of the Board,
NLRB authority is divided by law               conducts secret ballot elections to
and delegation. The five-member                determine whether employees wish
Board primarily acts as a quasi-               to be represented by a union.

2    NLRB Semiannual report
                                                            Seated left to right:
                                                                Richard Griffin,
                                                           Mark Gaston Pearce,
                                                              Brian Hayes, and
                                                                  Sharon Block




The Board consists of the              The NLRB’s Fiscal Year (FY) 2012
Chairman and four Members who          appropriation is $278,833,000 less a
are appointed by the President with    0.189 percent rescission.
the advice and consent of the          NLRB Headquarters is located at
Senate. Board Members serve            1099 14th Street, NW, Washington,
staggered terms of 5 years each.       DC. In addition to the Headquarters
The General Counsel is also            building, employees are located
appointed by the President with the    in 51 field offices throughout the
advice and consent of the Senate       country. Three satellite offices for
and serves a term of 4 years.          the administrative law judges are
At the beginning of this reporting     located in Atlanta, San Francisco,
period, the Board consisted of         and New York City. Since October
Chairman Mark Gaston Pearce            2, 2000, field offices have included
and Members Sharon Block,              32 Regional Offices, 16 Resident
Terence Flynn, and Richard Griffin.    Offices, and 3 Subregional Offices.
During the reporting period, Terence   Additional information about
Flynn resigned his position as a       the NLRB can be found at
Board Member. Acting General           www.NLRB.gov.
Counsel Lafe Solomon continued
to serve in that position during the
reporting period.


                                           NLRB Semiannual report                   3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to the
    1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
The OIG received an allocation of
$1,058,700 for FY 2012 operations,
of which $191,800 was for contract
services. In addition to the Inspector
General, the OIG consists of
a Counsel/Assistant Inspector
General for Investigations, an
Assistant Inspector General for
Audits, three auditors, and a staff
assistant.




4    NLRB Semiannual report
AUDIT
program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued one audit and one
   Management Implication memorandum.


Reports Issued                             year procurement actions create
We issued Audit Report OIG-                significant workload pressures.
AMR-70-12-02, End-of-the-                  To determine the level of year-end
Year Spending, on September                procurements, we compared the
17, 2012. We performed this                monthly level of work from June
audit to determine the level of            through September 2011. That
effort required at year-end by the         comparison showed that the work
acquisitions staff and to determine        for the Agency’s procurement
if any procurement actions violated        function was four times greater
the bona fide needs rule.                  in September than it was in June
Prior to this audit, the audits of the     and that 71.5 percent of the
annual financial statements found          procurement actions in September
a number of bona fide need issues          2011 occurred in the last 2 weeks.
in procurement actions that were           We also found $6.3 million of the
above $100,000. Given that the             FY 2011 appropriation was spent in
majority of procurement actions            September for goods and services
at the NLRB are below $100,000,            that were received predominantly
we determined that it was prudent          in FY 2012. That amount was
to test procurement actions that           approximately 22 percent of the
                                           Agency’s FY 2011 discretionary
involve amounts below $100,000
to determine the extent to which           spending.
violations of the bona fide needs          Our review of the individual
rule were occurring in the NLRB’s          procurement actions identified
procurement function. We were              $296,410.83 in questioned costs
also aware of comments by the              that resulted from bona fide needs
procurement staff that end-of-the-         rule violations. The violations

                                                NLRB Semiannual report           5
involved eight procurements. Three         purpose of the report was to address
of the bona fide needs rule violations     a concern regarding a conflict
occurred not because the goods or          of interest issue involving the
services were a need of another year,      Designated Agency Ethics Official’s
but because the procurement action         performance of duties with regard to
itself was not completed before            the Acting General Counsel.
the period of availability of the
appropriation that expired at the end
                                           Audit Follow-up
                                           Agreed upon actions were not
of the fiscal year. The remaining five
                                           completed within 1 year on five
violations were the result of using
                                           audit reports.
FY 2011 funds for the needs of
another fiscal year.                       Continuity of Operations, OIG-
                                           AMR-55-07-03, was issued on
We also found a lack of internal
                                           September 18, 2007, and we reached
control over the procurement
                                           agreement with management on that
activity to ensure that it was properly
                                           date. Management implemented the
processed in compliance with the
                                           final open recommendation during
Federal Acquisition Regulation. This
                                           this reporting period.
lack of control was evidenced by
both a disregard for the Agency’s          Laptop Computer Accountability
procurement procedures and                 and Security, OIG-AMR-59-09-01,
mistakes due to what appeared to be        was issued on February 27,
a lack of sufficient time to properly      2009, and we reached agreement
complete the procurement actions.          with management on that date.
In its response to the draft report,       Management implemented two of
Management agreed with our                 the final three recommendations
recommendations and stated that            during this reporting period. Because
corrective action would be initiated.      of changes in information security
The response also stated that they         requirements, we determined that the
have taken steps to improve controls       final recommendation should not be
over the financial management              implemented.
of the Agency, including creating          Official Time for Union Activities,
an Office of the Chief Financial           OIG-AMR-62-10-01, was issued on
Officer. During this reporting period,     December 11, 2009, and we reached
the Agency corrected seven of the          agreement with management on that
eight bona fide need violations totaling   date. Management implemented one
$287,265.48.                               of the four recommendations made
We issued Management Implication           in the report.
Report 2012-01, Designated                 Case Processing Costs, OIG-
Agency Ethics Official. The                AMR-64-11-02, was issued on April

6   NLRB Semiannual report
7, 2011, and we reached agreement    Purchase Cards, OIG-
with management on June 7, 2011.     AMR-65-11-03, was issued on
Management has been actively         September 30, 2011. Management
working to implement the one         implemented three of the five
recommendation made in the report.   recommendations made in this
                                     report.




                                        NLRB Semiannual report        7
INVESTIGATIONS
PROGRAM
     The Inspector General is to provide policy direction for and is to
     conduct, supervise, and coordinate investigations relating to the
     programs and operations of the Agency. During this reporting period,
     we processed 110 contacts, initiated 10 cases, closed 14 cases, and
     issued 5 investigative reports. Our investigative efforts resulted in two
     resignations while the investigation was pending and one suspension.
     One matter was referred for prosecution.



    Case Workload    Contacts Processed       an investigative report that was
                                              issued in a prior reporting period.
Open
(4/1/2012)
               21 Received              110   OIG-I-460
                    Initiated                 Initiated an investigation of
Initiated      10 Investigation         4     an employee who engaged in
                    Opened Case —
                                ­­­
                                              political activity in the workplace.
Closed         14 Referred to           0     The employee resigned after
                    Agency                    the investigation was initiated.
Open                Non-Investigative
                                              OIG-I-463
               17 Disposition           106
(9/30/2012)                                   Investigated an allegation that
                                              an employee engaged in travel
Investigative Highlights                      card abuse. Although we did not
Investigated an employee for travel           substantiate the allegations, we
card abuse and issued a report                did find mismanagement of the
substantiating the misconduct.                Regional Office’s travel approval
Management is considering                     process, and we issued a report
disciplinary action. OIG-I-459                detailing our findings. OIG-I-466
Management issued a 5-day                     Continued our investigative efforts
suspension to an employee who                 involving the improper release of
misused the travel card. The                  the Board’s information and issued
employee was the subject of                   a supplemental report. The subject

8     NLRB Semiannual report
resigned after the report was issued.   waste, and abuse are encouraged
OIG-I-468                               to contact the OIG. A log of calls
Investigated an allegation that an      to a nationwide toll-free number
employee used official time and         or the office numbers and a log of
resources to engage in harassment       mail, e-mail, and facsimile messages
of a non-employee. The allegation       are maintained. All information
was not substantiated. OIG-I-474        received, regardless of the method
                                        used, is referred to as Hotline
Investigated a matter and issued a      contacts. Hotline contacts are
report involving a financial conflict   analyzed to determine if further
of interest. OIG-I-475                  inquiry or action is warranted.
Investigated the loss of two smart      During this reporting period, the
telephone devices. We were unable       OIG received 110 Hotline contacts,
to identify a suspect or recover        of which 24 were telephone calls or
the smart telephones. We did            walk-ins and 86 were in writing.
identify and recommend correction
of deficiencies in information          Most Hotline contacts are from
technology asset management.            members of the public seeking help
OIG-I-478                               on an employment-related problem
                                        or issues outside OIG and/or
Investigated the theft of a travel      Agency jurisdiction. As appropriate,
card. We determined that the travel     the OIG refers those Hotline
card was likely lost rather than        contacts to an NLRB Regional
stolen from the employee’s office.      Office; local, state, or Federal
OIG-I-479.                              agencies; or private resources to
Hotline                                 provide assistance.
Employees and members of the
public with information on fraud,

                                            NLRB Semiannual report             9
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             • S. 1843, Representation Fairness
During FY 2012, there were 10             Restoration Act;
legislative proposals introduced in     • S. 2168, Re-empowerment
Congress that would amend the             of Skilled and Professional
National Labor Relations Act or           Employee and Construction
otherwise impact the programs and         Tradesworkers Act;
operations of the Agency:
                                        • S. 2173, National Right-to-Work
• H.R. 3094, Workforce Democracy          Act; and
  and Fairness Act;
                                        • S.J.Res. 36, Congressional
• H.R. 3487, Job Creation Act of          disapproval of the representation
  2011;                                   election rule.
• H.R. 3991, Keep Employees             The impact of these proposals on
  E-mails and Phones Secure Act;        the NLRB and its programs has
• H.J.Res. 103, Congressional           been the subject of extensive debate.
  disapproval of the representation     Regulations
  election rule;                        The Counsel to the Inspector
• S. 1666, Employer Free Speech         General is an advisory member
  Act;                                  of the Agency’s Rules Revision
• S. 1720, Jobs Through Growth          Committee that develops changes to
  Act;                                  the Agency’s procedural regulations.



10 NLRB Semiannual report
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United States.
   Similarly, we encourage OIG staff members to participate in Agency
   programs and activities.


Inspector General                         Government
Community                                 Accountability Office
The Inspector General is a member         The IG Act states that each
of the Council of the Inspectors          Inspector General shall give
General on Integrity and Efficiency.      particular regard to the activities
This organization consists of             of the Comptroller General of
Inspectors General at the Federal         the United States, as head of
Government’s departments and              the Government Accountability
agencies.                                 Office, with a view toward avoiding
The Assistant Inspector General           duplication and ensuring effective
for Audits, or designated auditors,       coordination and cooperation.
participated in the Federal Audit         During this reporting period, we
Executive Council, Financial              had no activity that involved the
Statement Audit Network, and              Government Accountability Office.
the Interagency Fraud and Risk
Data Mining Group. The Counsel
to the Inspector General participates
in the Council of Counsels to
Inspectors General.




                                               NLRB Semiannual report 11
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       (10) There are no audit reports
based on the activities accomplished     issued before the commencement
during this period are required by       of the reporting period for which
section 5(a) of the IG Act to be         no management decision has been
included in the semiannual reports.      made by the end of the reporting
These are set forth below:               period.
Section 5(a)                             (11) No significant revised
(1), (2), (7) OIG did not identify       management decisions were made
significant problems, abuses             during the reporting period.
or deficiencies relating to the          (12) There are no significant
administration of programs. For the      management decisions with which
purpose of this section, we used the     I am in disagreement.
definition of significant as set forth
                                         (13) There is no information to
in the Federal Managers’ Financial
                                         report under the requirements
Integrity Act.
                                         of section 05(b) of the Federal
(3) Corrective action has been           Financial Management Improvement
completed on all significant             Act of 1996.
recommendations that were
                                         (14) (15) A peer review of the
described in the previous
                                         audit program was conducted
semiannual reports.
                                         by the National Credit Union
(4) One case was referred to             Administration OIG. The peer
prosecutorial authorities.               review report was issued on October
(5) No reports were made to the          31, 2011. A copy of the peer review
Board that information or assistance     report is at the appendix. There were
requested by the Inspector General       no recommendations. The OIG’s
was unreasonably refused or not          investigative program is not subject
provided.                                to the peer review requirement.
(6) A listing by subject matter is       (16) The OIG did not conduct a
located on page 13.                      peer review of any other entities
                                         during this reporting period.
(8), (9)	 One report issued during
this period had questioned costs.
See Table 1.

12 NLRB Semiannual report
REPORTS BY
SUBJECT MATTER
                                                                         Funds
Subject Matter                    Questioned        Unsupported
                                                                      To Be Put To
and Title                           Costs              Costs
                                                                       Better Use

General Administration
End-of-the-Year Spending          $296,410.83           0                      0
OIG-AMR-70-12-02




Table 1. Reports With                                           Dollar Value
                                        Number of
Questioned Costs                         Reports       Questioned      Unsupported
                                                         Costs            Costs
A. For which no management
  decision has been made by the            0                0                      0
  commencement of the period
B. Which were issued during
   the reporting period
                                           1          $296,410.83                  0

Subtotals (A+B)                            1          $296,410.83                  0
C. For which a management decision
  was made during the reporting            1          $296,410.83                  0
  period

(i) Dollar value of disallowed costs       1          $296,410.83                  0
(ii) Dollar value of costs not
      disallowed
                                           0                0                      0
D. For which no management
  decision has been made by the            0                0                      0
  end of the reporting period

Reports for which no management
decision was made within six months        0                0                      0
of issuance




                                                    NLRB Semiannual report 13
Table 2. Reports with
Recommendations that                    Number of   Funds To Be Put
                                         Reports     To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0              0
   commencement of the period

B. Which were issued during the
   reporting period
                                           0              0

Subtotals (A+B)                            0              0
C. For which a management decision
   was made during the reporting           0              0
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0              0

(ii) Dollar value of recommendations
     that were not agreed to by            0              0
     management

D. For which no management decision
   has been made by the end of the         0              0
   reporting period

Reports for which no management
decision was made within six months        0              0
of issuance




14 NLRB Semiannual report
   Appendix
APPENDIX




DRAFT
              NLRB Semiannual report 15
DRAFT
  16 NLRB Semiannual report
DRAFT

        NLRB Semiannual report 17
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
